                                     CLOSEOUT FOR M99090047
     On 23 September 1999, we received an allegation of plagiarism. The complainant1alleged that
     the subject2 copied text, equations, tables, and figures from two published papers3 into his two
     NSF proposals to the Small Business Innovative Research (SBIR) program4 without appropriate
     citations. Some of the tables and figures allegedly copied .from the publications were slightly
     different in the proposals.

    We wrote to the subject, seeking his comments on the allegation. The subject shared the
    allegation with his supervisors, and company representativesS asked to meet with us to provide
    information about the company's proposals. They explained that the company submitted many
    proposals to different agencies, and, although it attempted to make sure everything in them was
    correct, it was difficult to check every detail. The president informed us that he had "taken
    actions to insure improved quality of all [their] proposals."

    In his written response, the subject explained that one of the authors of both publications6 was
    formerly an employee of the subject's company and was currently a consultant. The proposals
    explicitly referred to the author as a participant in the proposals and the project. The subject said
    that the author had actively participated in the preparation of the proposals, under the subject's
    supervision, and had given him oral permission to use these materials. As a result, he did not
    believe he needed to cite the original sources. Further, the subject explained that the differences
    between some of the figures and tables were the result of continued collaborative research by his
    company and the author on the work described in the publications. As part of the subject's
    response, he included a letter from the author that confirmed this inf~rmation.~

    In our letter to the subject, we asked if he had ever submitted an identical or similar version of
    either of these proposals to any other federal agency. The subject provided copies of several
    proposals, one of which was essentially identical to one of the NSF proposals in this inquiry. We
    noted that this other proposal had been submitted to the National Aeronautics and Space
-   Administration (NASA) one month after the NSF proposal,8 but the subject had failed to indicate




                                                                                        -

                                came to oroffice to provide additional information.

                 Re &nsul&t. who verified tl
                                     CLOSEOUT FOR M99090047
on the NASA proposal that he had submitted the essentially identical proposal to NSF, which
was still pending at the time. Like all SBIR agencies, NASA requires the company submitting a
proposal to disclose all submissions of similar proposals to other agencies.g Because we do not
have jurisdiction in this matter, we referred this information to the NASA OIG.

We determined that the subject's actions did not deviate from accepted practices in this case
because the author, a former employee of and current consultant for the company, had been
integrally involved in and aware of the preparation of the proposals in anticipation of being
employed by the company if either proposal was funded; and the author had given the company
permission to use the published material in the proposals. It is notable in this regard that, unlike
other NSF proposals, SBIR proposals do not provide for Co-Principal Investigators.

This case is closed and no further action will be taken.


c: Investigations, IG




9
    NASA SBIR 99-1 Solicitations, Chapter 3 (3.2.4), Technical Proposal, Part 1 1 : "Similar Proposals andAwards."
    "The offeror will inform NASA of related proposals and awards and clearly state whether the SBC has submitted
    currently active proposals for similar work under other Federal Government program solicitations or intends to
    submit proposals for such work to other agencies . . . ."




                                                  Page 2 of 2
